Case: 17-17535, 04/24/2019, ID: 11274843, DktEntry: 53-1, Page 1 of 3

NOT FOR PUBLICATION

FILED

UNITED STATES COURT OF APPEALS

APR 24 2019

FOR THE NINTH CIRCUIT
BAHAR MIKHAK,

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

No. 17-17535

Plaintiff-Appellant,

D.C. No. 3:16-cv-00901-CRB

v.
UNIVERSITY OF PHOENIX, INC.,

MEMORANDUM*

Defendant-Appellee.
Appeal from the United States District Court
for the Northern District of California
Charles R. Breyer, District Judge, Presiding
Submitted April 17, 2019**
Before:

(1 of 7)

McKEOWN, BYBEE, and OWENS, Circuit Judges.

Bahar Mikhak appeals pro se from the district court's judgment dismissing
for failure to prosecute her employment action alleging federal and state law
claims. We have jurisdiction under 28 U.S.C. ยง 1291. We review for an abuse of
discretion. Omstead v. Dell, Inc., 594 F.3d 1081, 1084 (9th Cir. 2010). We affirm.

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

Case: 17-17535, 04/24/2019, ID: 11274843, DktEntry: 53-1, Page 2 of 3

The district court did not abuse its discretion by dismissing Mikhak's action
for failure to prosecute because Mikhak did not comply with the district court's
orders directing Mikhak to initiate arbitration despite being warned that
noncompliance could result in dismissal. See id. (discussing the five factors for
determining whether to dismiss under Fed. R. Civ. P. 41(b) for failure to prosecute
or comply with a court order); Ferdik v. Bonzelet, 963 F.2d 1258, 1260 (9th Cir.
1992) (although dismissal is a harsh penalty, a district court's dismissal should not
be disturbed absent "a definite and firm conviction" that it "committed a clear error
of judgment" (citation and internal quotation marks omitted)); see also Pioneer
Inv. Servs. Co. v. Brunswick Assoc. Ltd. Partnership, 507 U.S. 380, 396 (1993)
(holding that clients must be held accountable for the acts and omissions of their
attorneys).
Because Mikhak's action was dismissed for failure to prosecute, we do not
consider her challenges to the district court's interlocutory orders. See Al-Torki v.
Kaempen, 78 F.3d 1381, 1386 (9th Cir. 1996) ("[I]nterlocutory orders, generally
appealable after final judgment, are not appealable after a dismissal for failure to
prosecute[.]").
We do not consider documents not presented to the district court. See
United States v. Elias, 921 F.2d 870, 874 (9th Cir. 1990) ("Documents or facts not
presented to the district court are not part of the record on appeal.").

2

17-17535

(2 of 7)

(3 of 7)
Case: 17-17535, 04/24/2019, ID: 11274843, DktEntry: 53-1, Page 3 of 3

We reject as unsupported by the record Mikhak's contentions that defendant
and its counsel committed perjury, that defendant's counsel and the district court
engaged in misconduct, or that Mikhak was denied an opportunity to file reply
briefs in response to various filings by defendant.
Mikhak's motion to present new issues and analyses (Docket Entry No. 27)
is denied.
Defendant's motion to strike (Docket Entry No. 35) is denied as
unnecessary.
AFFIRMED.

3

17-17535

Case: 17-17535, 08/28/2019, ID: 11413778, DktEntry: 65, Page 1 of

1

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

AUG 28 2019

BAHAR MIKHAK,
Plaintiff-Appellant,
v.
UNIVERSITY OF PHOENIX, INC.,

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

No. 17-17535
D.C. No. 3:16-cv-00901-CRB
Northern District of California,
San Francisco
ORDER

Defendant-Appellee.
Before:

McKEOWN, BYBEE, and OWENS, Circuit Judges.

Mikhak's motion to file an oversized petition for panel rehearing and
petition for rehearing en banc (Docket Entry No. 64) is granted.
The panel has voted to deny the petition for panel rehearing. โข
The full court has been advised of the petition for rehearing en banc and no
judge has requested a vote on whether to rehear the matter en banc. See Fed.
R.
App. P. 35.
Mikhak's petition for panel rehearing and petition for rehearing en banc
(Docket Entry No. 63) are denied.
No further filings will be entertained in this closed case.

